     Department of Homeland Security

     ��������������������������


         Nebraska's Management of State 

    Homeland Security Grant Program Awards for 

          Fiscal Years 2009 Through 2011 





OIG-13-109                              August 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      AUG 19 2013

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Nebraska’sfManagementfoffStatefHomelandfSecurityf
                             GrantfProgramfAwardsfforfFiscalfYearsf2009fThroughf2011ff
f
Attached for your information is our final report, Nebraska’sfManagementfoffStatef
HomelandfSecurityfGrantfProgramfAwardsfforfFiscalfYearsf2009fThroughf2011.ffWe
incorporated the formal comments from the Federal Emergency Management Agency
and the State of Nebraska in the final report.

The report contains seven recommendations aimed at improving the State of
Nebraska’s management of State Homeland Security Program grants. Your office
concurred with six recommendations. Based on information provided in your response
to the draft report, we consider recommendations #1, #2, #4 through #7 open and
resolved, and recommendation #3 closed. Once your office has fully implemented the
open recommendations, please submit a formal closeout request to us within 30 days so
that we may close the recommendations. The request should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 3 


              Homeland Security Strategy Objectives ................................................................. 3 

              Recommendation.................................................................................................... 5 

              Management Comments and OIG Analysis ........................................................... 6 


              Performance Measurement.................................................................................... 6 

              Recommendation.................................................................................................... 8 

              Management Comments and OIG Analysis ............................................................ 8 


              State Homeland Security Program Allocation Process ........................................... 8 

              Recommendation.................................................................................................... 9 

              Management Comments and OIG Analysis .......................................................... 10 


              Timely Obligation of Funds ................................................................................... 10 

              Recommendation.................................................................................................. 12 

              Management Comments and OIG Analysis .......................................................... 12 


              Property Management and Inventory Controls .................................................. 13 

              Recommendation.................................................................................................. 14 

              Management Comments and OIG Analysis .......................................................... 15 


              Compliance with Procurement Requirements ..................................................... 15 

              Recommendation ................................................................................................. 17 

              Management Comments and OIG Analysis .......................................................... 17 


              Monitoring Subgrantee Activities ......................................................................... 18 

              Recommendation.................................................................................................. 20 

              Management Comments and OIG Analysis .......................................................... 20 





    

    

www.oig.dhs.gov                                                                                                                 OIG-13-109 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendixes
           Appendix A:   Objectives, Scope, and Methodology .......................................... 21
           Appendix B:   FEMA Management Comments to the Draft Report .................... 24
           Appendix C:   NEMA Management Comments to the Draft Report ................... 30
           Appendix D:   Examples of Strategic Goals and Objectives ................................. 33
           Appendix E:   Homeland Security Grant Program…… ......................................... 34
           Appendix F:   Threat and Hazard Identification and Risk Assessment …… ......... 35
           Appendix G:   Major Contributors to This Report ............................................... 37
           Appendix H:   Report Distribution ....................................................................... 38

   Abbreviations
           CFR           Code of Federal Regulations
           DHS           Department of Homeland Security
           FEMA          Federal Emergency Management Agency
           FY            fiscal year
           GPD           Grant Programs Directorate
           HSGP          Homeland Security Grant Program
           LEOP          Local Emergency Operation Plan
           NEMA          Nebraska Emergency Management Agency
           OIG           Office of Inspector General
           OMB           Office of Management and Budget
           SAA           State Administrative Agency
           SHSP          State Homeland Security Program
           SPR           State Preparedness Report
           THIRA         Threat and Hazard Identification and Risk Assessments
           UASI          Urban Areas Security Initiative




www.oig.dhs.gov                                                                                               OIG-13-109

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the State of Nebraska.

   The audit objectives were to determine whether the State of Nebraska (1) spent grant
   funds effectively and efficiently, and (2) complied with applicable Federal laws and
   regulations and DHS guidelines governing the use of such funding. We also addressed
   the extent to which grant funds enhanced the State’s grantees ability to prevent,
   prepare for, protect against, and respond to natural disasters, acts of terrorism, and
   other manmade disasters. The Federal Emergency Management Agency (FEMA)
   awarded the State of Nebraska approximately $19.3 million in State Homeland Security
   Program and Urban Areas Security Initiative grants during fiscal years 2009 through
   2011.

   The State of Nebraska developed written procedures for program administration;
   ensured that grant expenditures for equipment and planning, training, exercises, and
   administrative activities were allowable; complied with grant reporting requirements;
   and the State’s and Omaha Urban Area’s Homeland Security strategies linked goals and
   objectives to national priorities and DHS mission areas in compliance with applicable
   Federal guidance.

   However, the State and the Omaha Urban Area can improve their homeland security
   strategies by including specific and time-limited objectives and the means to determine
   progress toward attaining their goals. The State can also improve its grant allocation
   formula, the timeliness of fund obligations, property management and inventory
   controls, compliance with procurement requirements, and the monitoring of its
   subgrantees.

   In addition, FEMA needs to provide its grantees with a method for determining the
   extent to which grant funds enhanced the State’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters.

   We made seven recommendations to FEMA, which, if implemented, should strengthen
   program management, performance, and oversight.




www.oig.dhs.gov                                1                                      OIG-13-109

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   assist State and local agencies in preventing, preparing for, protecting against, and
   responding to acts of terrorism. The State Homeland Security Program (SHSP) and
   Urban Areas Security Initiative (UASI) grants are two programs included in the HSGP,
   designed to fund a wide range of preparedness needs, including planning, organization,
   equipment, training, and exercises.

   FEMA awarded the State of Nebraska (State) SHSP grant funds during fiscal years (FYs)
   2009, 2010, and 2011, and the State’s Omaha Urban Area UASI grant funds in 2010,
   totaling approximately $19.3 million. The State of Nebraska has 93 counties divided into
   eight regions, with 10 hazardous materials teams that provide all-hazards response to
   manmade and natural disasters across the State.

   The Governor of Nebraska designated the Nebraska Emergency Management Agency
   (NEMA) as the State Administrative Agency (SAA) responsible for administering the
   HSGP. The SAA is responsible for managing the grant program in accordance with
   established Federal guidelines and allocating funds to local, regional, and other
   Nebraska government entities.

   Figure 1 illustrates the level of SHSP funding Nebraska received over a 5-year period.
   SHSP and UASI funding averaged $6.4 million per year during FYs 2009 to 2011, the
   periods covered by our audit. The State received its highest level of SHSP and UASI
   funding in FY 2010, but faces a nearly $4.8 million decline from 2010 levels in FY 2012.

   Figure 1. SHSP and UASI Funding Levels, FYs 2008 to 2012
                             Nebraska SHSP and UASI Funding
                           $6,524,500    $6,613,200
           $6,170,000

                                                   $5,137,205

                                                                                     SHSP
                                                                $2,801,316
                                                                                     UASI
                                          $1,013,087
                  $0.0         $0.0                             $0.0          $0.0

              2008            2009          2010           2011              2012
   fSource: Prepared by DHS OIG. 





www.oig.dhs.gov                                        2                                OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires DHS OIG to audit individual States’ management of SHSP
   and UASI grants. This report responds to the reporting requirements for the State of
   Nebraska. Appendix A describes the objectives, scope, and methodology of this OIG
   audit.

   Results of Audit

   The State of Nebraska developed written procedures for program administration;
   ensured that grant expenditures for equipment and planning, training, exercises, and
   administrative activities were allowable per the grant guidance; and complied with grant
   reporting requirements. Also, the State’s and Omaha Urban Area’s Homeland Security
   strategies linked goals and objectives to national priorities and DHS mission areas in
   compliance with applicable Federal guidance.

   However, the following improvements will enhance Nebraska’s grant management
   practices:

           •      Improve strategy objectives;
           •      Measure progress and improvements in preparedness;
           •      Revise the State Homeland Security Program allocation formula;
           •      Obligate grant funds timely;
           •      Enforce property management and inventory controls;
           •      Document compliance with procurement procedures; and
           •      Strengthen monitoring of subgrantee activities.

           Homeland Security Strategy Objectives

           The State and Omaha Urban Area linked their Homeland Security Strategy goals
           and objectives to the national priorities and DHS mission areas, as required by
           FEMA guidance. However, the objectives were not always specific, measurable,
           and time-limited; objectives to track progress were not always included; and the
           strategies’ evaluation plans were not being implemented. As a result, neither
           the State nor the Omaha Urban Area was able to demonstrate quantifiable
           improvement and accomplishments to reduce their vulnerability to terrorism
           and natural disasters.

           In July 2005, FEMA released guidance to the States and Urban Areas on how to
           align their Homeland Security Strategies with the National Preparedness Goal.



www.oig.dhs.gov                                  3                                    OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           ThefDepartmentfoffHomelandfSecurityfStatefandfUrbanfAreafHomelandfSecurityf
           Strategy:fGuidancefonfAligningfStrategiesfwithfthefNationalfPreparednessfGoal
           (Guidance) requires States to include goals and measurable objectives in their
           strategies, and mandates that an objective should be—

                  •	 Specific, detailed, particular, and focused—helping to identify what is to
                     be achieved and accomplished;
                  •	 Measurable—quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable—the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;
                  •	 Results-oriented—identifies a specific outcome; and
                  •	 Time-limited—a target date exists to identify when the objective will be
                     achieved.

           We reviewed the 50 objectives in the FYs 2009–2011 State Strategies and the 49
           objectives in the FY 2010 Omaha Urban Area Strategy. Of the 50 State
           objectives, 56 percent were not specific, 48 percent were not measurable, 18
           percent were not results-oriented, and 90 percent were not time-limited. Of the
           49 Omaha Urban Area objectives, 10 percent were not specific, 29 percent were
           not measurable, 12 percent were not results-oriented, and 90 percent were not
           time-limited.

           Forty-three of the 50 State objectives had “ongoing 2012” or “ongoing August
           2014” as the target date for completing the objectives. These dates represented
           the end dates of the grants and not the target date for achieving the objectives.
           Similarly, the Omaha Urban Area Strategy contained target dates for 5 out of 49
           objectives, and provided no time limits for the other 44 objectives. Examples of
           these goals and objectives are provided in appendix D.

           According to NEMA officials, the Strategies contain objectives that are not
           specific enough to be completed during the grant period. These activities will
           continue past the grant period; therefore, no specific date can be provided.
           Objectives are made nonspecific to accommodate constant changes in priorities
           and direction provided by FEMA.

           FEMA’s Guidance indicates that Strategic goals should have at least one objective
           or performance measure to track progress for achieving the goal. In the FYs
           2009–2011 State Strategies, 5 of the 11 goals do not include objectives to track


www.oig.dhs.gov                                    4	                                     OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           progress toward achieving the goal and 6 of the 15 goals in the Omaha Urban
           Area Strategy do not have these objectives.

           FEMA Guidance also requires that States and urban areas develop evaluation
           plans for monitoring progress, compiling key management information, tracking
           trends, and keeping the strategy on track. The State and Omaha Urban Area
           strategies included plans to evaluate progress on stated objectives; however,
           both NEMA and Omaha Urban Area officials confirmed that the plans have not
           been implemented.

           The State believed its strategies were in compliance with all requirements
           because they had been approved by FEMA without comment. The FY 2010
           Omaha Urban Area Strategy was also approved by FEMA without comment.

           Without objectives that are specific, measurable, results-oriented, and time-
           limited, or that contain methods for evaluating progress toward completion of
           goals and objectives, it is difficult for the State and Omaha Urban Area to
           measure and report on improvements in preparedness and for FEMA to make
           informed funding decisions.

           Recommendation

           We recommend that the Assistant Administrator, Grants Programs Directorate:

           Recommendation #1:

           Assist the Nebraska Emergency Management Agency in preparing future
           strategies with:

                  •	 Objectives that are specific, measurable, results-oriented, and time-
                     limited;
                  •	 Goals that contain at least one objective to track progress toward 

                     achievement of the goal; and 

                  •	 Implementation of the evaluation plans for monitoring progress,
                     compiling key management information, tracking trends, and keeping the
                     strategy on track.




www.oig.dhs.gov                                   5	                                        OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendations 1 and 2: FEMA and the
           State concurred with these recommendations. FEMA provided a consolidated
           response to recommendations 1 and 2. FEMA developed and is implementing a
           process to measure progress. The new process includes a Threat and Hazard
           Identification and Risk Assessment (THIRA) and State Preparedness Reports
           (SPR). The THIRA and the SPR results highlight gaps in capability and the
           progress of grantees in closing those gaps over time.

           FEMA stated that strategy updates to establish SMART goals and objectives are
           encouraged but not required as the new THIRA, SPR, and Investment
           Justification methodology provide the goals and assessment of progress against
           those goals. The THIRA also provides capability targets that serve as specific
           metrics and the SPR tool provides standards measurement against the targets.
           Lastly the THIRA, SPR, and Investment Justifications will serve as the basis for
           statewide assessment and reporting. FEMA believes the intent of the
           recommendations has been satisfied with their actions and requested that the
           recommendations be closed.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 1. This recommendation is open and resolved pending
           evaluation of the State’s first THIRA and SPR results.

           Performance Measurement

           NEMA and UASI officials could not demonstrate the extent to which FYs 2009–
           2011 SHSP and UASI grant funds enhanced the State’s ability to prevent, prepare
           for, protect against, and respond to natural disasters, acts of terrorism, and
           other manmade disasters. The State and UASI could not demonstrate
           quantifiable preparedness improvements and accomplishments, because FEMA
           had not provided them with a system with measurable target performance levels
           that could be compared to actual achievement. Without standards and metrics
           against which to measure progress, the State and the UASI cannot demonstrate
           the effect of grant expenditures on its level of preparedness.

           Congressional legislation called for FEMA to establish a comprehensive system to
           assess the Nation’s prevention capabilities and overall preparedness and use
           clear and quantifiable metrics, measures, and outcomes. FEMA has made efforts
           to establish standards and metrics for measuring preparedness, but at the time
           of our review a comprehensive measurement system had not been


www.oig.dhs.gov                                6                                      OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           implemented. As a result, Nebraska’s SAA and UASI officials were uncertain how
           to measure their performance or level of preparedness.

           The GovernmentfPerformancefandfResultsfActfoff1993 holds agencies
           accountable for setting goals, measuring program performance against the goals,
           and reporting publicly on their progress. The Post-KatrinafEmergencyf
           ManagementfReformfActfoff2006 called on the FEMA Administrator to establish
           a comprehensive system to assess the Nation’s prevention capabilities and
           overall preparedness. Because FEMA did not establish such a system, the
           RedundancyfEliminationfandfEnhancedfPerformancefforfPreparednessfGrantsfActf
           off2010 required FEMA to contract with the National Academy of Public
           Administration (the Academy) to develop quantifiable performance measures
           and metrics to assess the effectiveness of grant programs.

           In October 2011, the Academy issued its report, ImprovingfthefNationalf
           PreparednessfSystem:ffDevelopingfMorefMeaningfulfGrantfPerformancef
           Measures. The Academy recommended certain measures, but acknowledged
           that FEMA needed to develop additional quantitative and qualitative program
           and activity level measures. In FEMA’s undated, unsigned report to the
           Academy’s study, ThefReportfonfthefGrantsfProgramfMeasurementfStudy, the
           FEMA Administrator said “a variety of implementation issues would need to be
           addressed before FEMA can implement many of the recommended measures.”
           The Administrator also said that FEMA was reviewing the recommendations and
           developing an implementation timeline for some of the recommendations.

           In April 2012, FEMA required State and local governments receiving FEMA
           preparedness grants to complete Threat and Hazard Identification and Risk
           Assessments (THIRAs) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, States and territories receiving FEMA preparedness
           grants are required to annually submit a State Preparedness Report (SPR). FEMA
           officials state that THIRA results and the SPR will provide a quantitative summary
           of preparedness. However, we did not review the THIRA process because it was
           not within the scope of our review. Appendix F presents more information
           about the THIRA.

           Until FEMA provides grantees with a system for measuring performance and
           preparedness, it will be difficult to determine the extent to which SHSP and UASI
           grant funds have enhanced the ability of States, cities, and the Nation to



www.oig.dhs.gov                                7                                       OIG-13-109

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           prevent, prepare for, protect against, and respond to manmade and natural
           disasters.

           Recommendation

           We recommend that the Assistant Administrator, Grant Program Directorate:

           Recommendation #2:

           Develop and provide States and urban areas with a comprehensive
           measurement system that includes baselines for measuring and demonstrating
           progress toward enhancing their level of preparedness through the use of State
           Homeland Security Program and Urban Areas Security Initiative grants funds.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 2: FEMA and the State
           concurred with this recommendation. FEMA provided a consolidated response
           for recommendations 1 and 2 (see above).

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 2. This recommendation is open and resolved pending
           evaluation of the State’s first THIRA and SPR results.

           State Homeland Security Program Allocation Process

           NEMA’s allocation formula for SHSP funds includes population and land mass,
           but it does not consider other factors that may significantly contribute to the risk
           of terrorism, such as critical infrastructure and population density. As a result,
           grant funds may not be distributed where the risk of terrorism is greatest.

           When the SHSP grants were created, Congress called on the FEMA Administrator
           to consider States’ and cities’ relative threat, vulnerability, and consequence of
           its population, population density, as well as degree of threat, vulnerability, and
           consequences to critical infrastructure or key resources when allocating funding.
           According to FEMA’s grant guidance, in order to be eligible the activities
           implemented under SHSP must support terrorism preparedness by building or
           enhancing capabilities that relate to the prevention of, protection from,
           response to, and recovery from terrorism. SHSP funds were allocated to States
           and urban areas based on a risk assessment that considered the potential risk of
           terrorism to people, critical infrastructure, and economic security.


www.oig.dhs.gov                                 8                                        OIG-13-109

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              According to NEMA officials, the State initially had planned to distribute SHSP
              funds based solely on population, but it was decided that such an allocation
              ignored risks to the State’s agricultural industry. The State then added land mass
              to address the agricultural risk.

              The NEMA formula treated population and land mass equally. This allocation of
              available SHSP grant funds resulted in the Omaha Urban Area, which contains
              more than 300 critical infrastructures or key assets, receiving a similar amount of
              grant funds as the North Central region, as shown in table 1. 1

              Table 1. Allocation of SHSP Grant Funds in FY 2011
                       Omaha Urban Area                   North Central Region
               Population - 683,421 (38% of       Population -    59,542 (3% of
               State)                             State)
               Land Mass (Square Miles) – 981     Land Mass (Square Miles) – 24,623
               (1% of State)                      (32% of State)
               Grant Funds -                      Grant Funds -
               19.65%                             17.57%
              Source:f Prepared by DHS OIG.

              It is important that Nebraska considers including in its allocation formula
              additional factors contributing to the risk of terrorism, such as critical
              infrastructure and population density, to ensure SHSP grant funds are distributed
              to areas where the potential risk of terrorism to people, critical infrastructure,
              and economic security is the greatest. The Omaha Urban Area may not qualify
              for future UASI funds; therefore, it is important that the State reassess its SHSP
              allocation process to ensure adequate consideration is given to areas with the
              highest risk of terrorism.

              Recommendation

              We recommend that the Assistant Administrator, Grant Programs Directorate:

              Recommendation #3:

              Direct the Nebraska Emergency Management Agency to consider the benefits of
              including additional contributors of terrorism risk, such as population density
              and critical infrastructure, in its State Homeland Security Program allocation


   1
       The State has not identified non-Omaha Urban Area critical infrastructures.


www.oig.dhs.gov                                          9                                 OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           formula to ensure grant funds are distributed where the risk of terrorism is
           greatest.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 3: Although FEMA did not
           concur with this recommendation, we consider the State’s action responsive to
           the intent of the recommendation. FEMA officials stated that for them to
           require States to use risk assessment factors that were never designed to be
           used at the State or local level would be contrary to both the letter and the spirit
           of the Homeland Security Act and would undermine Congress’ expressed intent
           that States play a significant and primary role in assessing their own risk and
           security needs.

           OIG Analysis: The intent of our recommendation is to ensure the State has the
           best possible allocation plan that mitigates the highest risk of terrorism. We
           agree that the use of factors in 6 U.S.C. § 608 is not required of the State; we
           recommended they consider the benefits of including additional contributors of
           terrorism risk as a way to improve their allocation methodology. FEMA relies on
           the State to make the most informed decision for funds allocation. The State’s
           response to our report indicated that it understands the basis for considering
           additional factors contributing to the risk of terrorism in their allocation formula
           and will include a totality of such factors; therefore, we consider this
           recommendation closed.

           Timely Obligation of Funds

           NEMA did not obligate grant funds on a timely basis. For FYs 2009–2011, the
           State did not obligate 80 percent of funds awarded under the SHSP and UASI
           grant programs to local units of government within 45 days of receipt of funds,
           as required by FEMA’s grant guidance. The guidance states that four
           requirements must be met to obligate grant funds:

                  •	 There must be some action to establish a firm commitment on the part of
                     the awarding entity;
                  •	 The action must be unconditional on the part of the awarding entity (i.e.,
                     no contingencies for availability of NEMA funds);
                  •	 There must be documentary evidence of the commitment; and
                  •	 The award terms must be communicated to the official grantee.


www.oig.dhs.gov                                   10                                	     OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



           NEMA did not meet the grant requirements because of its lengthy obligation and
           approval process. First, NEMA sends award letters to each of the eight regional
           subgrantees, who have 30 days to sign and return the award letter to NEMA.
           Once notified, the eight regional subgrantees have up to 6 months to submit
           work plans to NEMA on prioritized projects that will be funded by the grant. Each
           work plan can contain up to 12 projects. NEMA’s Grant Administrator reviews
           and approves the subgrantee’s work plan to ensure the following:

                  •	 Project needs are documented;
                  •	 Project benefits the region;
                  •	 Work plan includes the estimated cost of the investment and deliverable
                     milestones;
                  •	 Desired equipment is listed in FEMA Authorized Equipment List;
                  •	 Projects are aligned with National and State Priorities and with 

                     Investment Justification Plan; and 

                  •	 Environmental assessments have been completed if necessary, which
                     entails a lengthy review prior to approval of the project.

           Once the work plans are approved, NEMA enters the projects into the Nebraska
           Grant Management System and the regional subgrantees allocate the funds to
           each project based on planned expenditures. Once NEMA approves the projects’
           planned expenditures, it sends a Grant Adjustment Notice to regional
           subgrantees for signature to finalize the grant agreement.

           Although the regions were notified of their award amount based on an allocation
           formula, reimbursements could not be requested until the Grant Adjustment
           Notices were signed and returned by the subgrantees. Special Condition #4 of
           the HSGP Sub-Recipient Agreement, reads Sub-recipientfagreesftofmakefnof
           requestfforfreimbursementfpriorftofthefreturnfoffthefGrantfAdjustmentfNotice.

           In FYs 2009 and 2010, Grant Adjustment Notices for selected subgrantees were
           executed (signed by both parties) approximately halfway through their grant
           performance periods. The performance period for FY 2009 was 1,064 days; the
           performance period for FY 2010 was 1,034 days. From the time FEMA granted
           the awards, it took an average of 594 days in FY 2009 and 434 days in FY 2010 to
           process the Grant Adjustment Notices. As a result, the subgrantees’
           performance period was limited to 53 percent of the total award period. In FY



www.oig.dhs.gov                                     11                               	    OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           2009, this may have contributed to the deobligation of unspent SHSP grant funds
           of about $55,000 when the FEMA grant agreement expired.

           In FY 2011, NEMA shortened the performance period for awards, which further
           limited subgrantees’ performance period. With the exception of the National
           Council of Regions and the Tri-County subgrantees, NEMA shortened the grant
           performance period of selected subgrantees by 6 months compared to previous
           years, so that it now ends on January 31, 2014. As a result of the shortened time
           period, subgrantees may not be able to use grant funds to meet their approved
           needs, and more funds may have to be deobligated when the FY 2011 FEMA
           grant agreement expires. As of September 30, 2012, FY 2011 Grant Adjustment
           Notices had not been processed for two of our selected subgrantees, and two
           other subgrantees had not yet requested reimbursement. In summary, four
           subgrantees’ performance periods had been reduced by 43 percent, with 488
           days remaining until the award expiration date of January 31, 2014.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #4:

           Require the Nebraska Emergency Management Agency to review and update its
           obligation and approval process to identify ways to shorten the process so
           subgrantees have sufficient time to procure and spend their grant funds.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 4: FEMA and the State
           concurred with this recommendation. The Assistant Administrator, Grant
           Programs Directorate (GPD) shall require NEMA to assess and streamline (where
           possible) processes and procedures for obligating funds to subgrantees. NEMA
           shall report to GPD the results of the assessment and steps to be taken to
           expedite the obligation of funds to subgrantees no later than 90 days after the
           issuance of this OIG final report and shall update written policy to reflect the
           changes within 180 days of the issuance of this OIG final report.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 4. This recommendation is resolved and open until GDP
           provides evidence that NEMA completed these actions.



www.oig.dhs.gov                               12                                      OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Property Management and Inventory Controls


           The State subgrantees did not comply with grant inventory and property record
           requirements for the equipment we reviewed. Property records for equipment
           bought with FYs 2009–2011 SHSP and UASI grants did not contain all required
           elements and physical inventories of property were not taken every 2 years as
           required by the Code of Federal Regulations (CFR).

           44 CFR 13.32(d), Managementfrequirements, and the NEMAfGrantfManagementf
           Handbook (Handbook) established procedures for managing equipment acquired
           with grant funds, and include the following requirements for subgrantees:

                  •	 Property records must be maintained and include the property’s
                     description, identification number, source of the property, titleholder,
                     acquisition date, cost, location, use and condition, and ultimate
                     disposition; and
                  •	 A physical inventory of the property must be taken and the results 

                     reconciled with the property records at least every 2 years. 


           We reviewed seven property records for our selected SHSP equipment
           expenditures. None of these records included all the information required by
           Federal regulations. The records did not contain columns for all required data,
           many columns were empty, and some of the locations provided were vague.
           Additionally, only one region official reported that he conducted physical
           inventories of equipment annually, but no evidence was provided. Three other
           selected subgrantees reported that they did not conduct periodic physical
           inventories.

           These conditions existed because NEMA control processes did not ensure the
           subgrantees maintained up-to-date records that conformed to Federal
           requirements and did not ensure the subgrantees conducted physical
           inventories of equipment purchased with FYs 2009–2011 SHSP and FY 2010 UASI
           funds. For example:

                  •	 The only process to verify inventory and review property records for
                     equipment purchased with SHSP grant funds was NEMA’s monitoring of
                     subgrantees. However, at the time of our review, NEMA had only
                     monitored one FY 2009 subgrantee. For this subgrantee, NEMA’s
                     monitoring process did not ensure that property records included all the




www.oig.dhs.gov                                   13                                 	      OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                     federally required elements. No other monitoring reviews of subgrantees
                     for FYs 2009–2011 SHSP funds had been performed during our review.
                  •	 NEMA’s Handbook included an Equipment Inventory template, but this
                     template was used in only two of the seven property records we
                     reviewed. Additionally, NEMA’s template did not provide for use and
                     condition, titleholder, and ultimate disposition data elements required by
                     the CFR.
                  •	 The Handbook also required the documentation of acceptance of
                     equipment purchased with HSGP funds to ensure accountability, and that
                     entities receiving the equipment are eligible and agree to respond in
                     support of their corresponding regions. Equipment acceptance
                     documentation must be signed by the regional subgrantee and the entity
                     receiving the equipment. Of 34 expenditures of equipment items we
                     tested, only 2 had signed documents certifying that equipment was
                     received. However, only the regional subgrantee representative signed
                     the document and not the equipment recipient, as required. We asked a
                     NEMA official whether NEMA verified evidence of equipment receipt
                     prior to reimbursing the subgrantees for equipment purchases. The
                     official said that subgrantees are required to submit an invoice for
                     equipment purchased, but currently no separate equipment receipt
                     document was required.

           Without adherence to inventory and property management requirements, the
           State cannot ensure assets procured with grant funds are properly safeguarded,
           in good condition, and available when needed to prevent, prepare for, protect
           against, and respond to all-hazards incidents.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #5:

           Require the Nebraska Emergency Management Agency to:

                  •	 Develop and implement controls to require and ensure its subgrantees
                     maintain up-to-date property records that include all data required by
                     Federal regulations and conduct physical inventories of equipment
                     pursuant to Federal regulations;



www.oig.dhs.gov                                  14                                 	    OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 Revise its GrantfManagementfHandbook Equipment Inventory template
                     to include all required data elements; and
                  •	 Require documentation of equipment receipt to ensure proper
                     accountability of equipment bought with State Homeland Security
                     Program and Urban Areas Security Initiative grant funds.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 5: FEMA and the State
           concurred with this recommendation. Within 180 days after the issuance of this
           OIG final report, the Assistant Administrator, Grants Programs Directorate will
           require NEMA to update its policies and procedures to reflect the requirements
           of 44 CFR. §13.32 concerning how property records and equipment purchases
           are managed, including the use of NEMA’s updated Grants Management and
           Equipment Inventory Standard Operating Procedure templates to log in these
           records.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 5. This recommendation is resolved and open until GDP
           provides evidence that NEMA completed these actions.

           Compliance with Procurement Requirements

           State subgrantees did not always comply with Federal procurement
           requirements. Procurement records did not show evidence that the subgrantees
           allowed vendor competition or documentation explaining why only one vendor
           was considered, and did not show cost or price analyses. This occurred because
           NEMA’s control processes did not verify that selected subgrantees’ expenditures
           complied with Federal procurement requirements. As a result, NEMA cannot
           ensure that the amounts paid are justified, fair, and reasonable, or whether the
           contract could have been awarded to an equally competent contractor at a
           lesser cost.

           44 CFR 13.36(b), Procurementfstandards, requires that subgrantees’
           procurement procedures conform to applicable Federal requirements, which
           include—

                  •	 All procurement transactions will be conducted in a manner providing full
                     and open competition.




www.oig.dhs.gov                                  15                                	    OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 Subgrantees must perform a cost or price analysis in connection with
                     every procurement action.
                  •	 Subgrantees are required to maintain records detailing the method of
                     procurement, contractor selection or rejection, and the basis for the
                     contract price.

           Of 35 subgrantees’ procurements tested, 21 (60 percent) did not comply with
           Federal requirements. Eight procurements had no evidence that the
           subgrantees allowed vendor competition or documentation explaining why only
           one vendor was considered and had no cost or price analyses. An additional
           seven procurements had documentation justifying why only one vendor was
           considered, but no cost analyses were conducted to support that costs were
           reasonable. Also, a subgrantee did not use competition for two procurements
           because they did not exceed the dollar threshold established in local
           procurement procedures requiring competitive quotes. For the remaining four
           procurements, documentation was insufficient to determine that the purchases
           corresponded to the contracts provided by the subgrantees; therefore, we could
           not determine if adequate procurement practices were used.

           Examples of the issues noted for the 21 procurements are—

                  •	 A $75,639 contract for the development of a continuity of operations and
                     debris development plan for counties within a region. According to
                     NEMA, it had a contract for this type of service with the same vendor,
                     and notified regions that they could use the contracts at the local level
                     with the expectation that the subgrantees would follow the local
                     procurement procedures. However, no sole source justification or cost
                     analysis was documented for this procurement.
                  •	 There was no evidence that a subgrantee allowed vendor competition for
                     two procurements of portable generators and lighting units costing
                     $15,405 and $3,586, respectively. The subgrantee said that each
                     procurement had two vendor quotes, but the documentation was not
                     maintained.
                  •	 A subgrantee did not use competitive procedures for a printer costing
                     $10,038. A NEMA official recognized the subgrantee did not obtain “an
                     adequate number of quotes” and said that, going forward, they will be
                     requiring subgrantees to attach all quotes to the Grant Management
                     System regardless of the applicable county’s procurement policies.




www.oig.dhs.gov                                   16                                 	    OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           NEMA’s only process to review subgrantees’ compliance with procurement
           practices is its monitoring of subgrantees. At the time of our review, NEMA had
           completed monitoring of only one subgrantee for the FYs 2009–2011 SHSP
           grants. A NEMA official said that NEMA will not perform any more monitoring of
           FY 2009 SHSP grants and had not yet started to monitor FYs 2010–2011
           subgrantees.

           Additionally, NEMA’s monitoring processes included review of compliance with
           State and local procurement practices, but not with Federal procurement
           practices. For selected subgrantees, local procurement practices included less
           stringent requirements than the Federal procurement requirements.

           Without ensuring vendor competition, sole source justifications, and cost or
           price analyses, NEMA does not have assurance that amounts paid are justified,
           fair, and reasonable, or whether the contract could have been awarded to an
           equally competent contractor at a lesser cost.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #6:

           Require the Nebraska Emergency Management Agency to develop and
           implement controls to ensure that all subgrantee procurements are conducted
           using competitive procedures or are supported by written sole source
           justifications and cost analyses in accordance with Federal procurement
           regulations.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 6: FEMA and the State
           concurred with this recommendation. Within 180 days after the issuance of this
           OIG final report, the Assistant Administrator, Grants Programs Directorate will
           require NEMA to develop and provide an updated procurement policy that
           complies with 44 CFR. §13.36 for subgrantees and local jurisdictions to follow.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 6. This recommendation is resolved and open until GDP
           provides evidence that NEMA completed these actions.



www.oig.dhs.gov                               17                                     OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Monitoring Subgrantee Activities 


           NEMA’s monitoring efforts did not ensure subgrantees complied with Federal
           requirements and achieved program performance goals for the FYs 2009–2011
           SHSP and FY 2010 UASI grants. NEMA’s monitoring processes did not ensure
           performance goals were being achieved, and NEMA officials stated that they did
           not have sufficient staff to conduct the required onsite monitoring visits. As a
           result, the State cannot ensure subgrantees are administering FYs 2009–2011
           SHSP and UASI grants funds in compliance with applicable Federal requirements
           and are achieving performance goals.

           The CFR, Office of Management and Budget (OMB), FEMA, and NEMA have
           specific guidance on grantee monitoring requirements:

                  •	 44 CFR §13.40, MonitoringfandfReportingfProgramfPerformance:
                     Grantees are responsible for managing the day-to-day operations of
                     grant-and subgrantee-supported activities and ensuring grant recipients
                     comply with applicable Federal requirements and achieve program
                     performance goals. This regulation also specifies grantees’ monitoring
                     programs must cover each program, function, or activity.
                  •	 OMB Circular A-133, AuditsfoffStates,fLocalfGovernments,fandfNon-profitf
                     Organizations, Compliance Supplement, Part 3-M: Grantees are
                     responsible for monitoring subgrantees’ use of Federal awards through
                     reporting, site visits, regular contact, or other means. Grantee
                     monitoring should provide reasonable assurance the subgrantee
                     administers Federal awards in compliance with laws and regulations, as
                     well as the provisions of contracts or grant agreements and that
                     performance goals are achieved.
                  •	 FEMA, HomelandfSecurityfGrantfProgramfGuidancefandfApplicationfKit:
                     Grant recipients are responsible for monitoring award activities, including
                     subawards, to provide reasonable assurance that the Federal award is
                     administered in compliance with requirements.
                  •	 NEMA, Directive 1601, Subrecipient GrantfMonitoring: NEMA is
                     responsible for monitoring the performance of projects to ensure
                     adherence to performance goals and to track progress against strategies.
                     Office-based and onsite monitoring is conducted using a Monitoring
                     Report Form, and results documented in a Monitoring Memorandum.




www.oig.dhs.gov                                   18                                	     OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           NEMA has one person conducting site visit monitoring for all SHSP, UASI, and
           Emergency Management Preparedness Grants. According to NEMA officials,
           staff shortages have prevented NEMA from conducting the desired number of
           onsite monitoring visits. As a result, NEMA did not conduct its first (and only)
           onsite monitoring of FY 2009 SHSP subgrantees until November 2012, almost 4
           months after the FY 2009 grant period expired. As of February 2013, no onsite
           monitoring of FYs 2010 or 2011 SHSP subgrantees had occurred and NEMA
           monitoring staff said that they will not conduct any more FY 2009 monitoring
           because the FY 2009 grant period had expired.

           The infrequency of onsite monitoring increased the importance of the “Office-
           Based Monitoring” (desk reviews). According to NEMA’s monitoring directive,
           the majority of monitoring would occur through desk reviews. Two NEMA
           officials performed the desk reviews, one monitoring the FY 2010 grant and the
           other monitoring the FY 2011 grant. The focus was on progress in spending
           funds, and review documentation (emails) was generated only if issues with
           subgrantee actions were uncovered.

           NEMA monitoring policy requires both desk reviewers and onsite monitors to
           document their reviews and report the outcome to management. Because desk
           reviewers did not document review results or report results to management,
           there was no subgrantee monitoring record or review results to determine
           Federal compliance and achievement of performance goals. In addition, desk
           reviews provided no insight on the condition or availability of equipment. As a
           result, desk reviews were not a substitute for onsite monitoring.

           Additionally, the monitor’s documentation of the one site visit provided no
           information on the subgrantee’s adherence to performance goals or progress
           against the homeland security strategy. None of the monitoring documentation
           or forms used to document the review referred to performance or progress,
           even though the monitoring directive included the requirement for NEMA to
           determine the status of both. Because the current desk monitoring process
           resulted in no documentation, NEMA had no method of determining the
           progress of its subgrantees in achieving the State’s goals and objectives.

           When subgrantees are not adequately monitored, FEMA and the State cannot be
           sure that grant funds are being spent in compliance with Federal regulations,
           performance goals and objectives are being achieved, and noncompliant
           activities are being identified and corrected.




www.oig.dhs.gov                                19                                      OIG-13-109

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #7:

           Require the Nebraska Emergency Management Agency to—

                  •	 Monitor grant and subgrant supported programs, functions, and activities
                     for the State Homeland Security Program and Urban Areas Security
                     Initiative grants to assure compliance with Federal requirements and that
                     performance goals are being achieved, and
                  •	 Require its monitors to document their reviews.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 7: FEMA and the State
           concurred with this recommendation. Within 180 days of the issuance of the
           OIG final report, the Assistant Administrator, Grants Programs Directorate will
           require NEMA to establish a subgrantee monitoring program that will ensure
           compliance with all applicable State and Federal laws and regulations and grant
           program guidance. FEMA also suggested we revise the first bullet of the
           recommendation in the report to make it less broad. The State indicated that
           they implemented a schedule to complete monitoring visits for FYs 2010, 2011
           and 2012 during their period of performances and that it will ensure future
           grants are monitored at least once during the period of performance. NEMA will
           implement a process to document both on-site visits and desk monitoring of
           subgrantees and keep the documentation in the grant files.

           OIG Analysis: We consider FEMA’s and the State’s responses responsive to the
           intent of recommendation 7. We revised the first bullet of the recommendation
           to make it less broad. This recommendation is resolved and open until GDP
           provides evidence that NEMA completed these actions.




www.oig.dhs.gov                                  20                                	    OIG-13-109

                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires DHS OIG to audit individual States’ management of SHSP and UASI
   grants. This report responds to the reporting requirement for the State of Nebraska.

   The audit objectives were to determine whether the State of Nebraska (1) spent grant
   funds effectively and efficiently and (2) complied with applicable Federal laws and
   regulations and DHS guidelines governing the use of such funding. We also addressed
   the extent to which grant funds enhanced the State’s grantees ability to prevent,
   prepare for, protect against, and respond to natural disasters, acts of terrorism, and
   other manmade disasters.

   The scope of this audit included the plans developed by the State to improve
   preparedness and response to all types of hazards, goals, and objectives set in those
   plans; measurement of progress toward the goals; and assessments of performance
   improvement resulting from this measurement.

   HSGP and its interrelated grant programs fund a range of preparedness activities,
   including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, we reviewed only SHSP and UASI
   funding, equipment, and supported programs for compliance.

   The scope of the audit included the SHSP and UASI grant awards for FYs 2009, 2010, and
   2011, as shown in table 2.

   Table 2. State of Nebraska’s SHSP and UASI Awards (FYs 2009 through 2011)
             Grant Program                FY 2009          FY 2010      FY 2011        Total
    State Homeland Security Program      $6,524,500        $6,613,200   $5,137,205   $18,274,905
    Urban Areas Security Initiative               0         1,013,087            0     1,013,087
    Total                                $6,524,500        $7,626,287   $5,137,205   $19,287,992
   Source: FEMA.




www.oig.dhs.gov                                       21                                           OIG-13-109
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   The audit methodology included work at FEMA headquarters, State of Nebraska offices,
   and various subgrantee locations in the northern, central, and southern regions of the
   State that received grants. To achieve our audit objective, we analyzed data, reviewed
   documentation, and interviewed key State and local officials directly involved in State
   HSGP management and administration.

   We sampled grant award files from State agencies, regional subgrantees, and county
   hazardous materials teams that received SHSP and UASI grant allocations in FYs 2009,
   2010, or 2011, as shown in table 2 and table 3. We judgmentally selected 45 percent of
   grant expenditures from NEMA and selected subgrantees as of September 30, 2012 (as
   listed in the third column of table 3). To ensure the completeness of expenditures, we
   reconciled data in the Grant Management System to SHSP and UASI grant balances per
   the General Ledger as of September 30, 2012.

   Table 3. Subgrantee Sample Selection (FYs 2009 through 2011)
                                                      Grant        Expenditures as    Subgrantee
                    Subgrantees
                                                    Allocation      of 9/30/2012      Type
    Board of Regents University of Nebraska            $535,500       $418,267.55     State
    East Central Region                                  652,020        300,547.35    Region
    Nebraska Council of Regions                       5,423,978                  *    Region
    Nebraska Emergency Management Agency              2,259,985       1,486,155.59    State
    Nebraska State Patrol                                622,908        906,656.25    State
    North Central Region                              1,487,006         924,427.03    Region
    Omaha UASI/Tri County Region                      2,383,862       1,392,467.74    Region
                                                                                      Local First
    Platte County Hazmat Team                             75,000         49,736.14    Responder
    South East Region                                   1,600,768       463,003.60    Region
    Total NEMA and Selected Subgrantee
    Allocations and Expenditures                     $ 15,041,027    $5,941,261.25
   * Nebraska Council of Regions’ expenditures are included in NEMA’s expenditures.
   Source: NEMA Initial Strategy Implementation Plans.

   At each location, we interviewed officials and reviewed documentation supporting State
   and subgrantee management of grant funds (see figure 2). In addition, we verified the
   existence of selected equipment subgrantees procured with grant funds.

   We conducted this performance audit between October 2012 and April 2013 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence


www.oig.dhs.gov                                     22                                              OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.f

                               Figure 2. Nebraska Regional Map

                  *Subgrantees selected are located within regions marked with star*f





   Source:ffNEMAfGrantfManagementfHandbook





www.oig.dhs.gov                                  23                                      OIG-13-109

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                        I •• lltf1R r1mtnl ~r ll QmtiiUtd S~C\Irif)'
                                                                                        \~aJh!n~lOn. DC :!IH12




                                                 JUL 0 9 2013
              ME.J\10RANDUM FOR :           Anne L. Richards
                                            AssaslUnt Jn~pc<.:tur Gcneml for Audit:. (010)
                                            Department of Homeland Security

              FROM.                         David J. Kaufman     QV
                                            Associate Administrator for
                                            Policy, Program Analysis and International Affairs
                                            Fcdernl Emergency Management Agency (FEMA)

              SUBJECT.                      PEM/\' ~ Response to OIG-1 2-IOS-/\UD-FI:!MA Daa!l Report:
                                            ·'The Stale of Nebraska's Management of Homeland Security
                                            GrMI Pmgrnm Awards for Fi:;cal Years2009 Lbruugh 201 I''.


              TI1ank you for the opportunity to review and comment on O IG-1 2-1 05-/\UD-FEMI\ Draft
              Report : "The Stutc o f 'c.br:tSka ·s Management n f I Iomehind Security (jrant Program Awards fl'lr
              Fiscal Years 2009 through 2011 ''.

              OIG Recommendation I: We recommend Lbat the Assistant Administrator. Grants Program$
              l)irectorate !ISSi$t the Nebraska Emergency Management Agency in preparing future sU11tcgic9
              with:
                  • Objecti ves that are specific. measurable. results-oriented. and time-limited:
                  • Goals that contnin tttleast one objective to track progress toward ach..iewment of the goal:
                      and
                  • Implementation of the evaluation plans for monitoring progress, compiling key
                      m anagement infonnation. tracking. trends, and keeping the strategy on track.

              FBMA Rcsp on~c to Rccoollno.nrl ntion 1 ' Con L'ltr.   (Se~   ctmsolidulion response for
              recomm endations I & 2 below.)

              OIG Recommenda tion 2: We recommend that the Assistant Administrator, GranL~ Programs
              Directo ratL' develop and provide States and urban areas with a comprehensive measurement
              w~1cm th;n include!> baselines for megsurinJ!, and demonstrating progress tow11rd enhancing their
              level ofprepan:dncas through the usc of Slate Homeland Security Progrum and Urbtm ru~cus
              Security Initiative grants fund s.




                                                                                        n.ww.r~rna   10\




www.oig.dhs.gov                                               24                                                                       OIG-13-109

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA Response to Recommendations 1 & 2: Concur. The OIG has recommended that
              FEMA help states, territories and urban areas establish measurable goals and objectives that will
              enable them to systematically measure improvements in first responder capabilities and
              statewide preparedness. FEMA has established and implemented a system to do exactly that, as
              described below.

              FEMA has made substantial progress in measuring the effectiveness of DHS preparedness
              grants. The National Preparedness Goal (the Goal) and the National Preparedness System serve
              as the framework for assessing grant effectiveness. FEMA's strategy for developing metrics and
              assessing grant performance begins with the Goal. The Goal defines the core capabilities
              necessary to prepare for the threats and hazards that pose the greatest risk to the security of the
              Nation, and it includes concrete, measurable objectives to manage that risk. The Goal's
              capability targets provide concrete statements of the Nation's requirements in each core
              capability.

              Measuring Grant Effediveness
              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the Goal. FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand the risks it faces, use
              those risks to determine the capabilities it needs, assess its current capability levels against those
              requirements, and track its progress in closing capability gaps.

              In 2012, FEMA released a consistent methodology for determining risks in the Comprehensive
              Preparedness Guide 201: Threat and Hazard Identification and Risk Assessment (THIRA} Guide
              (CPG-201}. CPG-201 details the five-step process jurisdictions can use to generate desired
              outcomes and capability targets for each of the core capabilities. Diverging from past efforts to
              establish measures and metrics for a capability that would be applied uniformly, this approach
              allows a jurisdiction to establish its own capability targets based on the risks it faces. On
              December 31, 2012, states, territories, and major urban areas receiving Homeland Security Grant
              Program (HSGP) funds, of which the State Homeland Security Program and the Urban Area
              Security Initiative are subprograms, were required to submit their THIRAs to FEMA.

              Once each jurisdiction has determined capability targets through the TillRA process, it estimates
              its current capability levels against those targets. On December 31, 20 12, states and territories
              were required to submit State Preparedness Reports (SPRs) to FEMA that estimate current
              preparedness levels against the targets set in their THIRAs. The THIRA and SPR processes are
              scalable to allow sub-jurisdictions, sub-grantees and subject matter experts to provide input to
              the state or territory. Taken together, the THIRA results and the SPR identify capability needs
              and gaps. The THIRA and SPR results highlight gaps in capability and the progress of grantees
              in closing those gaps over time. FEMA reports the results of the capability assessments annually
              in the National Preparedness Report (NPR).

              Sustaining, Building and Delivering Capabilities
              Having estimated capability requirements, the next component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant


                                                                2




www.oig.dhs.gov                                                25                                                      OIG-13-109

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              applications. In the investment justifications (IJ) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of the core capability as
              well as the capability gaps noted in their SPR that investment intends to address. In addition, the
              grantee must identify the specific outcome(s) that the investment will yield. FEMA verifies
              completion of the investment/project through its programmatic monitoring and spending on the
              investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the
              monitoring process. Since the period of performance for the HSGP is two years, a time limit is
              set for completion of the project once it is funded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that will enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states to use a set of tools including the
              THIRA, SPR, and Investment Justifications (IJs). Strategy updates are encouraged but not
              required as the THIRA, SPR and lJ methodology provide the goals and assessment of progress
              against those goals.

              FEMA addressed recommendation for development of performance metrics by requiring States
              and Territories to use the THIRA, which provides capability targets that serve as specific
              metrics, and the SPR tool, which provides standard measurement against the targets.

              FEMA addressed the recommendation for assessment and reporting systems by requiring States
              and Territories to use the THIRA, SPR, and Us as the basis for statewide assessment and
              reporting. The methodology and tools for THIRA and SPR are scalable and available to local
              jurisdictions and sub-grantees.

              FEMA believes this satisfies the intent of this recommendation and requests that this
              recommendation be closed.

              OIG Recommendation 3: We recommend that the Assistant Administrator, Grants Programs
              Directorate direct the Nebraska Emergency Management Agency to consider the benefits of
              including additional contributors of terrorism risk. such as population density and critical
              infrastructure, in its State Homeland Security Program allocation formula to ensure grant funds
              are distributed where the risk of terrorism is greatest.

              FEMA Response to Recommendation 3: Non-concur. This recommendation is based on an
              OIG finding that Nebraska is not utilizing a variety offactors, all of which are set out in 6 U.S.C.
              § 608, to prioritize its SHSP subawards based on risk. FEMA is statutorily required to use the
              factors set forth in 6 U.S.C. § 608 to prioritize SHSP and UASI awards based on risk. The 6
              U.S.C. § 608 factors do not apply to States or other grantees. For this reason, States are not
              required to use the 6 U.S.C. § 608 factors to prioritize SHSP or UASI subawards and it would be
              contrary to the language of the Homeland Security Act and the intent of Congress to require or
              suggest that the States do so.

              While FEMA understands the intent of this recommendation, the intent of Congress is clear in
              that the States and urban areas are best equipped to assess their own unique threats and
              vulnerabilities to potential terrorist attack. For this reason, the Homeland Security Act of 2002,


                                                                3




www.oig.dhs.gov                                                26                                                      OIG-13-109

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              as amended, gives States the responsibility to assess their own risk and vulnerabilities by
              developing a State homeland security plan that can be used to help the States develop effective
              funding priorities for SHSP and UASI grants. See 6 U.S.C. § 6ll(b). Congress, recognizing that
              States and local governments are more fully aware of their own security needs, intentionally
              designed the Homeland Security Act to give States and other locals primary responsibility for
              assessing their own risk. Congress is fully aware that the relative risk factors States use to
              validate risk are unique to individual States and the urban areas within each State. For FEMA to
              require States to use risk assessment factors that were never designed to be used at the State or
              local level would be contrary to both the letter and the spirit of the Homeland Security Act and
              would undermine Congress express intent that States play a significant and primary role in
              assessing their own risk and security needs.

              FEMA requests this recommendation be considered resolved and closed.

              Recommendation 4: We recommend that the Assistant Administrator, Grants Programs
              Directorate require the Nebraska Emergency Management Agency to review and update its
              obligation and approval process to identify ways to shorten the process so subgrantees have
              sufficient time to procure and spend their grant funds.

              FEMA Response to Recommendation 4: Concur. The Homeland Security Act of2002, as
              amended, and FEMA grant guidance require states receiving SHSP funds to make at least 80%
              of those funds available to local and tribal governments within 45 days of receiving those funds.
              The Assistant Administrator, Grants Programs Directorate shall require NEMA to assess and
              streamline (where possible) processes and procedures for obligating funds to subgrantees.
              NEMA shall report to GPO the results of this assessment and potential steps to be taken to
              expedite the obligation of funds to subgrantees no later than 90 days after the issuance of the
              OIG fmal report. FEMA will also require NEMA to develop an updated written policy that
              describes its sub award approval and obligation processes, and that includes any identified steps
              that can be used to streamline the process of obligating funds to subgrantees, within 180 days of
              the issuance of the OIG final report.

              FEMA requests this recommendation be considered resolved and open.

              OIG Recommendation 5: We recommend that the Assistant Administrator, Grants Programs
              Directorate require the Nebraska Emergency Management Agency to:

                  •   Develop and implement controls to require and ensure its subgrantees maintain up-to-
                      date property records that include all data required by Federal regulations and conduct
                      physical inventories of equipment pursuant to Federal regulations;
                  •   Revise its Grant Management Handbook Equipment Inventory template to include all
                      required data elements; and
                  •   Require documentation of equipment receipt to ensure proper accountability of
                      equipment bought with State Homeland Security Program and Urban Areas Security
                      Initiative funds.




                                                              4




www.oig.dhs.gov                                              27                                                   OIG-13-109

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA Response to Recommendation 5: Concur. FEMA requires SHSP and UASI grantees
              and subgrantees to comply with the equipment management requirements set forth in 44 C.F .R. §
              13.32. Within 180 days after the issuance of the OIG final report, the Assistant Administrator,
              Grants Programs Directorate will require NEMA to update its policies and procedures to reflect
              the requirements of 44 C.F.R. § 13.32 concerning how property records and equipment
              purchases are managed, including the use ofNEMA's updated Grants Management and
              Equipment Inventory Standard Operating Procedure (SOP) templates to log in these records.

              FEMA requests this recommendation be considered resolved and open.

              Recommendation 6: We recommend that the Assistant Administrator, Grants Programs
              Directorate require Nebraska Emergency Management Agency to develop and implement
              controls to ensure that all sub-grantee procurements are conducted using competitive procedures
              or are supported by written sole source justifications and cost analyses in accordance with
              Federal procurement regulations.

              FEMA Response to Recommendation 6: Concur. SHSP and UASI grantees and subgrantees
              are required to comply with the procurement procedures set forth in 44 C.F.R. § 13.36, as well as
              procurement procedures required by state and local law. Within 180 days of the issuance of the
              OIG final report, the Assistant Administrator, Grants Programs Directorate will require NEMA
              to develop and provide and updated procurement policy that complies with 44 C.P.R.§ 13.36 for
              subgrantees and local jurisdictions to follow. In the event that State law prohibits NEMA from
              requiring local jurisdictions to comply with a state authored procurement policy, NEMA will
              have to explain or justify the reasons why this is not possible. In the event that Home Rule laws
              prohibit NEMA from developing a procurement policy that applies to local governments, FEMA
              will require NEMA to require local jurisdictions, as a condition of receiving a subgrant, to
              develop their own local procurement policies that fully comply with 44 C.F.R. § 13.36.

              FEMA requests this recommendation be considered resolved and open.

              Recommendation 7: We recommend that the Assistant Administrator, Grants Programs
              Directorate require the Nebraska Emergency Management Agency to-

                  •   Monitor each program, function, and activitY for State Homeland Security Program and
                      Urban Areas Security Initiative grants; and
                  •   Require its monitors to document their reviews for compliance with Federal regulations
                      and progress toward achieving performance goals.

              FEMA Response to Recommendation 7: Concur. FEMA concurs with the intent of
              recommendation 7, but believes that the first bullet related to program monitoring is too broad
              and will be difficult to implement Instead, FEMA recommends that the recommendation be
              changed to read:
                 • Establish a monitoring program that ensures subgrantees are compliant with both State
                     and Federal rules and regulations, and the intent of the grant program.




                                                              5




www.oig.dhs.gov                                              28                                                   OIG-13-109

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Within 180 days of the issuance of the OIG final report, the Assistant Administrator, Grants
              Programs Directorate will require NEMA to establish a sub grantee monitoring program that will
              ensure compliance with all applicable State and Federal laws and regulations and grant program
              guidance.

              Thank you again for the opportunity to comment on FEMA's Response to OIG-12-105-AUD-
              FEMA Draft Report: "The State ofNebraska's Management of Homeland Security Grant
              Program Awards for Fiscal Years 2009 through 2011 ~and for the work that you and your team
              have done to better inform us throughout this audit so that we may enhance the program's overall
              effectiveness. We look forward to your fmal report for this audit. Please direct any questions
              regarding this response to Gary McKeon, FEMA's Chief Audit Liaison, at 202-6%-1308.




                                                             6




www.oig.dhs.gov                                             29                                                   OIG-13-109

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix C
   State of Nebraska Comments to the Draft Report

   STATE OF N EBRASKA
                                                                                                              EMERGENC Y MAl'iA GEMENT AC E 'IC
                                                                                                                                        Judd II. Lyo ns
                                                                                                                                                Drrec1or
                                                                                                                                   2433 N.W 24°' Street
                                                                                                                          L•ncoln. Nebraska 6 8524 -1801
                                                                                                                                   Phone (402) 4 7 1-7471




    l)$t \ ' P Heineman
    r •nverrnr




                 June 12 , 2013


                 Anne L. Richard
                 Assistant Inspector General for Audits
                 Office o f Inspector General
                 U .S. Department of H omeland Secu rity
                 Washington, DC 20528

                  Dear Ms Richards

                  Please accept this letter as official response to your Draft Report: Nebraska 's Management of
                  Homeland Security Grant Program Awards Fiscal Years 2009 through 2011 . We have reviewed
                  the report and have no reservation in publicly releasing this d ocument upon inclusion of the
                  following response to the listed recommendations :

                  Recommendation #1 :

                          The Nebraska Emergency Management Agency (N EMA) concurs with this
                          recommendalion.

                          The NEMA has initiated a process to update its' Homeland Secu rity Strategy for FY2013
                          with specific, measurable, achievable . results-oriented, and time-limited objectives with
                          goals that contain at least one objective and implementation of an evaluation program for
                          monitonng progress.

                  Recommendation #2:

                          Th e Nebraska Emergency Management Agency concurs with this recommendation .

                          The NEMA will comply with any comprehensive measurement system that will be
                          established by th e Federal Emergency Management Agency.

                   Recommendation #3:

                          The State of Nebraska allocates its grant dollars according to risk. including economic risk.
                          Nebraska's number one industry is agriculture which puts it in our high risk category for
                          c ritical infrastructure . key resourc es. and economy. Critical infrastructure and key
                          resources includes the livestock industry , grain and chemical storage facilities , ra il lines and
                          terminals. If any of these were destroyed by a terrorist attack, it would be catastroph ic to
                          t he State's econ omy as well as the Nation 's food supply. Nebraska will allocate grant
                          dollars based on the utilization of the current FY2012 THIRA for threats and risks.
                                                       A n Equal O;JportunftyiA.'fNmiJtive A ctioa EmploytK




www.oig.dhs.gov                                                       30                                                                 OIG-13-109

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                             The NEMA understands the basis for considering including additional factors contributing to
                             the risk of terrorism in our allocation formula and will include a totality of factors such as
                             risk, threat, consequence , infrastructure, monetary impact and also likelihood.

                  Recommendation #4:

                     •       The Nebraska Emergency Management Agency concurs with this recommendation.

                             The Nebraska Emergency Management Agency is cognizant of the language of the grant
                             for the 45 day obligation period. We recognized the intent of the guidance and felt we had
                             put together a program that met the mtent. The system we put into place, while the auditors
                             did not think it met the 45 day obligation, was predicated on the sub-grantees willmgness to
                             meet timelines as a participant within the program. Nothing within the NEMA grant
                             management process precluded a sub-recipient from submitting their requests and budgets
                             in a timely manner to be approved within the 45 day timeframe. There is also the question
                             of what is meant by "unconditional" within the context of a sub-recipients ability to have
                             access to the funds. Without a clear definition and frame of reference from DHS, it 1s
                             virtually unobtainable as a goal to meet the 45 day timeframe.

                             The NEMA will implement a pilot program to begin the sub-grantee application process
                             prior to FEMA issuing the State's award. With the cooperation of the sub-grantees
                             following program guidelines and submission of their applications, they will have their
                             awards within 45 day timeframe.

                  Recommendation #5:

                     •       The Nebraska Emergency Management Agency concurs with this recommendation.

                             The NEMA will reaffirm and enforce the property management requirements for equipment
                             purchased with federal funds in individual sub-grantee contracts.

                             The NEMA will require and ensure its sub-grantees, (1) maintain up-to-date property
                             records that include all data required and conduct physical inventories of equipment, (2)
                             revise our Grant Management Handbook Inventory template to include all required data
                             elements and (3) require and ensure documented equipment receipt certification. Further
                             the NEMA will require non-compliant sub-grantees to provide a plan to the NEMA to
                             become compliant within 30 days of the finding.

                  Recommendation #6:

                         •    The Nebraska Emergency Management Agency concurs w ith the findings and
                              recommendations.

                              The NEMA has already instituted a requirement that all sub-grantee procurements are
                              conducted using competitive procedures or are supported by written sole source
                              justifications and cosUprice analyses, in accordance with Federal procurement regulations.
                              The NEMA will update its Grant Management Handbook to reflect these requirements.
                              Purchases are now being reviewed with a desk audit to ensure compliance and will be
                              monitored on site VISits with the NEMA program inspector.




www.oig.dhs.gov                                                31                                                  OIG-13-109

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




       Recommendation #7:

          •   The Nebraska Emergency Management Agency concurred with the findings and
              recommendations.

              The NEMA has implemented a schedule to complete monitoring visits for FY2010, 2011 &
              201 2 during their period of performances. It will also ensure future grants are monitored at
              least once during the period of performance.

              NEMA staff will implement a process to document both on-site visits and desk monitoring of
              sub-grantees and keep the documentation in the grant files .


       Sincerely,




                                           An Equal OpeorrunitYfAffirmartve Acrt'n Employer




www.oig.dhs.gov                                                  32                                           OIG-13-109

                                                      OFFICE OF INSPECTOR GENERAL
                                                           Department of Homeland Security


        Appendix D
        Examples of Strategic Goals and Objectives
                          State Goal A: Emergency                 State Goal H: Improve         UASI Goal 7: Enhance the capabilities of
                          Operations Plans will be used as        the State’s ability, at the   the Tri-County Specialized Teams to
                          the basis for planning, training, and   local/regional level, to      respond regionally to all-hazards
                          exercise activities at the State and    recognize, detect,            incidents, including Chemical, Biological,
                          local levels.                           identify, respond to, and     Radiological, Nuclear & Explosive
                                                                  recover from an               incidents or act of terrorism. These
   Goal




                                                                  agricultural terrorism        teams include Bomb Squad, HAZMAT
                                                                  incident.                     teams, Community Emergency Response
                                                                                                Teams, Incident Dispatch Teams, Medical
                                                                                                Reserve Corps, Air Support Unit, Crime
                                                                                                Scene Investigation Evidence Collection
                                                                                                Team, SWAT, River Response Teams, and
                                                                                                Public Health Emergency Response Team.
                          A.2: Local jurisdictions will use       H.2: Increase the             7.1: The Tri-County Urban Area will seek
                          their Local Emergency Operation         capability of                 to strengthen regional capabilities,
   Objective




                          Plans (LEOP) to formulate a             local/regional officials to   coordination, and cooperation beyond
                          comprehensive and progressive           plan for agricultural and     the Tri-County Urban Area geographical
                          planning, training, and exercise        food events. Ongoing          boundaries, including the development
                          program. Ongoing July 2010              August 2012                   of a multijurisdictional prevention and
                                                                                                response plan based on the Improvised
                                                                                                Explosive Devices Scenario.
                          • Establish a local LEOP review         • Maintain curriculum         • Establish relationships with jurisdictions
   Implementation Steps




                            group.                                  for delivery to county        outside our geographical boundaries
                          • Conduct a LEOP orientation 2            officials and                 and encourage shared projects among
                            months before the born-on date          responders.                   the parties.
                            for the LEOP.                         • Schedule delivery of        • Develop a coordinated and
                          • Make necessary annual updates           training to                   comprehensive response plan to
                            and submit to NEMA.                     local/regional officials      support Nebraska’s Strategy for
                          • Annual update complete on the           and responders.               Homeland Security.
                            born-on date for the LEOP.                                          • Regional Exercise Design Team has
                          • Complete a full revision of the                                       been established.
                            LEOP every 5 years.
                          • Not specific or focused               • Not specific or focused     • Not specific or focused
   Deficiencies




                          • Not measurable                        • Not measurable              • Not measurable
                          • Not results-oriented                  • Not results-oriented        • Not time-limited
                          • Not time-limited                      • Not time-limited



        Source: OIG analysis of Nebraska 2009 State and 2010 UASI Homeland Security Strategies.





www.oig.dhs.gov                                                              33                                                OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix E
   Homeland Security Grant Program
   State Homeland Security Program Grant supports the implementation of State
   Homeland Security Strategies to address the identified planning, organization,
   equipment, training, and exercise needs to prevent, protect against, respond to, and
   recover from acts of terrorism and other catastrophic events.

   Urban Areas Security Initiative Program funds address the unique planning,
   organization, equipment, training, and exercise needs of high-threat, high-density urban
   areas, and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   Metropolitan Medical Response System Program supports the integration of
   emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System Program grantees reduce the consequences of a mass casualty
   incident during the initial period of a response by augmenting existing local operational
   response systems before an incident occurs.

   Citizen Corps Program brings community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.

   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, State, and Federal law enforcement agencies in a joint
   mission to secure the U.S. borders along routes of ingress from international borders to
   include travel corridors in States bordering Mexico and Canada, as well as States and
   territories with international water borders. This program was not included in the FY
   2009 HSGP.




www.oig.dhs.gov                               34                                       OIG-13-109

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix F
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The Threat
   and Hazard Identification and Risk Assessment (THIRA) provides a comprehensive
   approach for identifying and assessing risks and associated effects, using the core
   capabilities identified in the National Preparedness Goal and employing the following
   five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how they affect the
           community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify
           means to deliver target level of capability).

   THIRA submission is required of all 56 States and Territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first
   THIRA submission was due December 31, 2012. Subsequent submissions will be an
   annual performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and Territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report (SPR). FEMA officials state
   that THIRA results and the SPR will provide a quantitative summary of preparedness,
   document current capabilities and potential shortfalls, and set priorities for addressing
   shortfalls. FEMA officials also state that the SPR results will be used by the States to
   identify funding requirements and set priorities for subgrantee project applications. The
   grant application (investment justification) must demonstrate how proposed projects
   address gaps and deficiencies in delivering one or more core capabilities outlined in the
   National Preparedness Goal and, as FEMA officials state, address capability gaps
   reported in the SPR.

   FEMA officials said that the FY 2013 HSGP funding announcement will require applicants
   to map proposed investments to specific core capabilities and capability gaps identified
   in the SPRs, linking investments to actions that build and sustain capabilities aligned



www.oig.dhs.gov                               35                                 	    OIG-13-109

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   with the National Preparedness Goal. We have not had the opportunity to audit this
   process or the outcomes for this State.




www.oig.dhs.gov                             36                                     OIG-13-109

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Donald Bumgardner, Director
   Yeseira Diaz, Audit Manager
   Gloria Medina-Ortiz, Auditor
   Polin Cohanne, Program Analyst
   Jose R. Benitez-Rexach, Auditor
   Enrique Leal, Auditor
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Referencer




www.oig.dhs.gov                             37                  OIG-13-109

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  38                        OIG-13-109

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
